OIG Investigative Reports,Washington. DC January 23, 2014 - Former District of Columbia Schools Compliance Officer Pleads Guilty to Wire Fraud and Conflict-of-Interest Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
District of Columbia
NEWS
FOR IMMEDIATE RELEASE
Thursday, January 23, 2014
For Information Contact:
Public Affairs
(202) 252-6933
http://www.justice.gov/usao/dc/index.html
Former District of Columbia Schools Compliance Officer
Pleads Guilty to Wire Fraud and Conflict-of-Interest Charges
Defendant’s Private Transportation Company Collected More Than $460,000 in Fraudulent Payments
WASHINGTON – Donnie Dukes, a former compliance officer for the District of Columbia Public Schools, has pled guilty to charges in a scheme involving more than $460,000 in fraudulent payments to a private transportation company that he owned and controlled.
The plea was announced by U.S. Attorney Ronald C. Machen Jr.; Valerie Parlave, Assistant Director in Charge of the FBI’s Washington Field Office; Charles J. Willoughby, Inspector General for the District of Columbia, and Steven Anderson, Special Agent in Charge, Mid-Atlantic Regional Office, Office of Inspector General, U.S. Department of Education.
Dukes, 40, of Hyattsville, Md., pled guilty on Jan. 22, 2014, in the U.S. District Court for the District of Columbia, to wire fraud and conflict-of-interest charges. The Honorable Ketanji Brown Jackson scheduled sentencing for June 17, 2014. Under federal sentencing guidelines, the parties have agreed that Dukes faces a prison sentence of 27 to 33 months, as well as potential financial penalties. The plea agreement calls for Dukes to pay a total of $463,621 in restitution to the District of Columbia. He also has agreed to a forfeiture money judgment of $300,000.
According to the government’s evidence, Dukes worked from October 2008 until October 2010 as a compliance officer for the District of Columbia Public Schools (DCPS). His duties included making arrangements for transportation for the special needs students who received education services outside of the District of Columbia.
At the same time, however, Dukes owned and controlled a private company that provided, among other services, transportation to students who needed to travel from the District of Columbia to education centers outside of the District of Columbia for special services.
While working at DCPS, Dukes personally referred, or caused colleagues of his at DCPS to refer, 86 out-of-state student transports to his company, resulting in the firm receiving $325,000 in payments from the District of Columbia Office of the State Superintendent of Education. Of this, the government’s evidence showed, $163,621 involved illegitimate expenses.
Dukes was terminated from DCPS in October 2010 as part of an overall reduction in the workforce. He then schemed to obtain non-public lists of students needing transportation services from his former colleagues at DCPS. Dukes later used these lists to create false invoices and supporting documentation for payments to his company in the names of the students. Dukes created 60 false invoices and supporting documentation through this scheme, causing the District of Columbia Office of the State Superintendent of Education to pay his company $300,000 for transportation services that never were provided.
In announcing the plea, U.S. Attorney Machen, Assistant Director in Charge Parlave, Inspector General Willoughby, and Special Agent in Charge Anderson commended the work of those who investigated the case from the FBI’s Washington Field Office, the District of Columbia Office of Inspector General, and the U.S. Department of Education’s Office of Inspector General. They also acknowledged the efforts of those who worked on the case from the U.S. Attorney’s Office, including Legal Assistant Nicole Wattelet and Assistant U.S. Attorney Seth B. Waxman, who is prosecuting the case.
14-021
Top
Printable view
Last Modified: 01/24/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov